Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



   MEDICARE COMPLIANCE
REVIEW OF HARTFORD HOSPITAL
    FOR CALENDAR YEARS
       2009 AND 2010




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                      December 2012
                                                      A-01-11-00533
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Hartford Hospital (the Hospital), a teaching affiliate of the University of Connecticut School of
Medicine, is an 867-bed hospital located in Hartford, Connecticut. Medicare paid the Hospital
approximately $429 million for 31,691 inpatient and 122,341 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

Our audit covered $2,148,806 in Medicare payments to the Hospital for 186 claims that we
judgmentally selected as potentially at risk for billing errors. These 186 claims had dates of
service in CYs 2009 and 2010 and consisted of 124 inpatient and 62 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 115 of the 186 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 71
selected inpatient and outpatient claims, resulting in overpayments totaling $419,510 for CYs
2009 and 2010. Specifically, 42 inpatient claims had billing errors, resulting in overpayments
totaling $268,859, and 29 outpatient claims had billing errors, resulting in overpayments totaling
$150,651. Overpayments occurred primarily because the Hospital did not have adequate
controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $419,510, consisting of $268,859 in overpayments for
       42 incorrectly billed inpatient claims and $150,651 in overpayments for 29 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

HARTFORD HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred in part with our findings and
recommendations with the exception of 28 cancelled surgeries billed incorrectly as inpatient
claims. The Hospital stated that these cancelled surgery claims were medically necessary as
inpatient stays. The Hospital stated that CMS rules, at the time that the services in question were
billed, did not clearly or conclusively address the issue of cancelled surgeries. In addition, the
Hospital stated that billing guidance for cancelled surgeries from its Medicare Administrative
Contractor (MAC) and other MACs is inconsistent with CMS rules. The Hospital also stated
that certain surgical procedures designated by CMS as “inpatient-only” can be billed only as
inpatient regardless of whether the surgery was performed. The Hospital’s comments are
included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that our findings and recommendations with regard to cancelled surgeries are
correct. These cancelled surgery claims, at our request, underwent medical review by the
Hospital’s MAC. As determined by the MAC, for all of these cancelled surgery claims, the
medical records did not support the need for inpatient status. CMS billing options for cancelled
surgery include the submission of an inpatient claim, if appropriate. However, the patient’s
symptoms must be severe enough to warrant an inpatient stay and services must be provided of
the requisite intensity. Patients whose elective surgeries have been cancelled, and who exhibit
no other severe symptoms and receive no “intensive” inpatient services, would not satisfy this
criteria.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Hartford Hospital ...........................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrectly Billed Medical Device Credits ....................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
          Incorrectly Billed Medical Device Credits ....................................................................5
          Incorrectly Billed Healthcare Common Procedure
            Coding System Codes or Number of Units.................................................................7
          Incorrectly Billed Procedure That Was Already Included
            in the Hospital’s Payment ...........................................................................................7
          Incorrectly Billed Evaluation and Management Services ..............................................7

      RECOMMENDATIONS .......................................................................................................8

      HARTFORD HOSPITAL COMMENTS ..............................................................................8

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................9

APPENDIX

      A: RISK AREAS REVIEWED AND BILLING ERRORS

      B: HARTFORD HOSPITAL COMMENTS




                                                                     iii
                                                 INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and


1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
analysis techniques. Examples of these types of claims at risk for noncompliance included the
following:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient and outpatient claims paid in excess of charges,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed with evaluation and management (E&M) services, and

    •   outpatient observation services that resulted in outlier payments.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Hartford Hospital

Hartford Hospital (the Hospital), a teaching affiliate of the University of Connecticut School of
Medicine, is an 867-bed hospital located in Hartford, Connecticut. Medicare paid the Hospital
approximately $429 million for 31,691 inpatient and 122,341 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,148,806 in Medicare payments to the Hospital for 186 claims that we
judgmentally selected as potentially at risk for billing errors (see Appendix A). These 186
claims had dates of service in CYs 2009 and 2010 and consisted of 124 inpatient and 62
outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected only a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from November 2011 through March 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replacement cardiac medical devices from
        device manufacturers for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;



                                                 3
   •   selected a judgmental sample of 186 claims (124 inpatient and 62 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for submitting Medicare claims;

   •   used CMS’s Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 115 of the 186 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 71 claims, resulting in overpayments totaling $419,510 for
CYs 2009 and 2010. Specifically, 42 inpatient claims had billing errors, resulting in
overpayments totaling $268,859, and 29 outpatient claims had billing errors, resulting in
overpayments totaling $150,651. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent the incorrect billing of Medicare claims.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 42 of 124 sampled inpatient claims, which resulted
in overpayments totaling $268,859.



                                                4
Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 39 of 124 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient services. The majority of these claims involved
cancelled surgical procedures. As a result of these errors, the Hospital received overpayments
totaling $250,659. 3

Incorrectly Billed Medical Device Credits

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states that
to correctly bill for a replacement device that was provided with a credit, hospitals must code
Medicare claims with a combination of condition code 49 or 50, along with value code “FD.”

For 3 of 124 sampled claims, the Hospital received a reportable medical device credit for
a replaced device from a manufacturer but did not adjust its inpatient claims with the
proper value and condition codes to reduce payment as required. The Hospital stated
these errors occurred because it did not follow existing procedures to adjust Medicare
claims for medical device credits received. As a result of these errors, the Hospital
received overpayments totaling $18,200.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 29 of 62 sampled outpatient claims, which resulted
in overpayments totaling $150,651.

Incorrectly Billed Medical Device Credits

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. In addition, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.”

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the

3
 The Hospital may bill Medicare Part B for a limited range of services related to some of these 39 incorrect
Medicare Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the
overpayment amount because these services had not been billed or adjudicated by the MAC prior to the issuance of
our report.

                                                        5
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explains how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
 If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual, part 1, section
2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable is the
       expectation that the provider seeks to minimize its costs and that its actual costs do not
       exceed what a prudent and cost conscious buyer pays for a given item or service. If costs
       are determined to exceed the level that such buyers incur, in the absence of clear evidence
       that the higher costs were unavoidable, the excess costs are not reimbursable under the
       program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full
       or partial credits available under the terms of the warranty covering the replaced
       equipment. The credits or payments that could have been obtained must be reflected as a
       reduction of the cost of the equipment.

For 10 of 62 sampled claims, the Hospital received full credit for replaced devices but did not
properly report the “FB” modifier or reduced charges on the claims (8 errors) or did not obtain
credits for replaced devices that were available under the terms of the manufacturers’ warranties
(2 errors). The Hospital stated that the errors occurred because it did not follow existing
procedures to adjust Medicare claims for credits received or for identifying credits it should have
received. As a result of these errors, the Hospital received overpayments totaling $75,149.




                                                 6
Incorrectly Billed Healthcare Common Procedure Coding System Codes or Number of
Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 4 of 62 sampled claims, the Hospital submitted claims to Medicare with either incorrect
HCPCS codes (2 errors) or number of units (2 errors). The Hospital stated that these
overpayments occurred because of human error. As a result of these errors, the Hospital
received overpayments totaling $46,747.

Incorrectly Billed Procedure That Was Already Included in the Hospital’s Payment

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 of 62 sampled claims, the Hospital incorrectly billed Medicare for a procedure that was
already included in the payment for another procedure billed on the same claim. These
procedures were related to the insertion of a cardiac medical device. The Hospital stated this
overpayment occurred because of human error. As a result of the error, the Hospital received an
overpayment of $27,773.

Incorrectly Billed Evaluation and Management Services

The Manual, chapter 12, section 30.6.6(B), states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure.

For 14 of 62 sampled claims, the Hospital incorrectly billed Medicare for E&M services that
were part of the usual preoperative or postoperative work of the procedure. The incorrectly
billed services were associated primarily with urological and gynecological surgical procedures.
The Hospital was not eligible for the E&M payments since the services that the physicians
performed were not significant, separately identifiable, and above and beyond the usual
preoperative and postoperative work of the procedures. The Hospital attributed the errors to a
single Hospital department that did not completely understand the billing requirements for E&M
services. As a result of these errors, the Hospital received overpayments totaling $982.




                                                 7
RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $419,510, consisting of $268,859 in overpayments for
        42 incorrectly billed inpatient claims and $150,651 in overpayments for 29 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.


HARTFORD HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred in part with our findings and
recommendations with the exception of 28 cancelled surgeries billed incorrectly as inpatient
claims. The Hospital stated that these cancelled surgery claims were medically necessary as
inpatient stays. The Hospital billed the cancelled surgeries as inpatient claims but did not
include the cancelled surgical procedure on the claims. The Hospital stated that CMS rules, at
the time that the services in question were billed, did not clearly or conclusively address the issue
of cancelled surgeries. The Hospital stated, “If the CMS rules relating to canceled surgeries
direct the provider to assign a V code to an inpatient claim, it is counterintuitive to conclude that
CMS does not allow billing for canceled surgery as inpatient stays.” 4

Furthermore, the Hospital disagreed with National Government Services’ (NGS) medical review
determinations 5 that the identified cancelled surgery claims represent medically unnecessary
inpatient services. The Hospital noted that the medical review concluded that these cancelled
surgery claims should have been billed as outpatient claims. The Hospital stated that NGS did
not inform the Hospital that it could not submit claims for cancelled surgeries as inpatient claims
with a V code assigned. The Hospital stated that it “sees no justifiable link between [the]
Medicare Claims Processing Manual and the conclusion that all canceled surgeries must be
billed as outpatient surgeries.”

The Hospital also cited an email correspondence with NGS and online material it found from
another MAC (Wisconsin Physicians Service) to show inconsistent guidance with CMS rules.
The Hospital paraphrased the transcript of one of Wisconsin Physicians Service’s
teleconferences with hospitals by stating that the contractor is expected to bill inpatient for
cancelled “inpatient-only” surgeries and use the appropriate V-codes on the inpatient claim.

The Hospital stated that surgical procedures designated as “inpatient-only” (13 of the 28 claims)
can be billed only as inpatient regardless of whether the surgery was performed and that to
conclude that every cancelled surgery for every inpatient-only claim results in a medically

4
 “V code” refers to specific codes addressing cancelled surgical procedures that are included in the American
Medical Association’s “Official ICD-9-CM Guidelines for Coding and Reporting.”
5
  NGS is the Hospital’s jurisdictional MAC. We requested NGS to perform a medical review of 37 inpatient claims
for which the scheduled surgical procedure was cancelled.

                                                         8
unnecessary stay is to render this “inpatient-only” rule meaningless. The Hospital’s comments
are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that our findings and recommendations with regard to cancelled surgeries are
correct. As with any Medicare service, the basic criteria for coverage is found in section
1862(a)(1)(A) of the Social Security Act, which states that Medicare does not pay for services
that are not reasonable and necessary for the diagnosis and treatment of illness or injury.
Further, CMS provides guidance to its MACs on their conduct of medical reviews of inpatient
hospital claims in Chapter 6 of the Medicare Program Integrity Manual, Pub. 100-08. In section
6.5.2, CMS instructs MACs to conduct reviews of inpatient hospital claims and that the “review
of the medical record must indicate that inpatient hospital care was medically necessary,
reasonable, and appropriate for the diagnosis and condition of the beneficiary at any time during
the stay,” and, further, that “[t]he beneficiary must demonstrate signs and/or symptoms severe
enough to warrant the need for medical care and must receive services of such intensity that they
can be furnished safely and effectively only on an inpatient basis.”

Thirty-seven of the inpatient claims we sampled involved a cancelled surgery. Most cancelled
surgery claims submitted by the Hospital included room and board charges and minimal, if any,
preoperative tests (e.g., labs, electrocardiograms, radiology, etc.). While the level of care
provided to the patient appeared minimal, we recognize that, in some instances, an emergent
medical condition may cause surgery to be cancelled but the patient may still need to be admitted
under an inpatient level of care. Therefore, we requested a medical review of these claims by
NGS. The NGS medical review found that for all 37 cancelled surgery claims the medical
records did not support the need for inpatient status.

Contrary to the Hospital’s statement, NGS’s determinations are not based on the interpretation of
CMS guidance that requires services provided in the context of a cancelled surgery to always be
billed as outpatient services. There are no specific CMS instructions which require the use of a
V code and inpatient billing when a surgical procedure is cancelled. CMS billing options for
cancelled surgery include the submission of an inpatient claim (if appropriate), an inpatient leave
of absence claim, an outpatient claim, or an inpatient Part B claim to recover payment for
ancillary services. The patient’s symptoms must be severe enough to warrant an inpatient stay
and services must be provided of the requisite intensity. Patients whose elective surgeries have
been cancelled, and who exhibit no other severe symptoms and who receive no “intensive”
inpatient services, would not appear to satisfy this criteria.

In the same WPS transcript referenced by the Hospital in its comments, WPS states that, when
billing for inpatient-only procedures, “First, the admission itself must be reasonable [and]
necessary.” WPS further states in this transcript, “Patients who’s (sic) outpatient preoperative
clearance has not been completed do not meet admission criteria and should not be admitted for
elective procedures regardless of whether they’re on that inpatient-only list or not. If the patient
has already registered with the hospital when the staff discovers that the preoperative clearance
has not been done, this does not suddenly make that admission reasonable and necessary and it
should not be billed to Medicare.” Thirty-one of the 37 cancelled surgery claims were cancelled

                                                 9
because the patient did not pass preoperative clearance. Since the inpatient admission would not
be medically necessary if the preoperative examination were done prior to the admission, it is not
medically necessary after admission when the preoperative examination has determined that the
patient is not ready for surgery. To the extent that the preoperative examination was done after
admission, the belatedness of the preoperative examination—and the belated determination that
the patient is not ready for surgery—is not a circumstance that would make the admission
medically necessary.

For the remaining six claims, surgeries were cancelled because the Hospital was not prepared
with adequate staff or room. For the reasons discussed above, the Hospital’s lack of
preparedness does not justify the Hospital billing an inpatient claim and the resultant
reimbursement.




                                               10
APPENDIXES
               APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS


                                                   Sampled    Claims With     Value of
Risk Area                                           Claims   Overpayments   Overpayments
Inpatient Short Stays                                   47             29        $161,847

Inpatient Claims Paid in Excess of Charges              20             10         $88,812
Inpatient Manufacturer Credits for Replaced
                                                        30              3         $18,200
Medical Devices
Inpatient Same-Day Discharges and Readmissions          15              0              $0
Inpatient Claims Billed with High Severity Level
                                                        12              0              $0
Diagnosis-Related Group Codes
Totals                                                 124             42        $268,859


Outpatient Manufacturer Credits for Replaced
                                                        26             11        $102,922
Medical Devices
Outpatient Claims Paid in Excess of Charges              6              4         $46,747
Outpatient Claims Billed With Evaluation and
                                                        20             14            $982
Management Services
Outpatient Observation Services that Resulted in
                                                        10              0              $0
Outlier Payments
Totals                                                  62             29        $150,651
                APPENDIX B: HARTFORD HOSPITAL COMMENTS
                                                                                                     Page 1 of 8
                                                 LJl
                              SHIPMAN & GOODWINLLp®
                                         COUNSELORS AT          LAW




Joan W. Feldman
Phone: (860) 251-5104
Fax: (860) 251-5211
jfeldman@goodwin.com


                                                     November 12, 2012



CERTIFIED MAIL DELIVERY/

Michael J. Armstrong
Regional Inspector General for Audit Services
Department of Health and Human Service
Office of Inspector General
Office of Audit Services, Region I
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

Re: 	   Audit A-01-11-00533-Medicare Compliance Review of Hartford Hospital for
        Calendar Years 2009 and 2010

Dear Mr. Armstrong:

        I am writing on behalf of my client, Hartford Hospital (the "Hospital"), which is
in receipt of the above referenced draft audit report. The Hospital has carefully reviewed
the findings and accepts most of the findings, but takes exception to certain findings set
forth in the audit report category referred to as "Incorrectly Billed as Inpatient".

        Specifically, the Hospital disputes twenty-eight (28) claims in this category
relating to canceled surgeries. Nineteen (19) of these claims were in the auditor's
category A referred to as "Inpatient Short Stays" and nine (9) of the claims were in the
auditors category B referred to as "Inpatient Stays Wherein Payment Was Greater than
Charges" .

        Thirteen (13) of the claims in category A are for "inpatient only" admissions, two
(2) of the claims relate to a canceled surgery that was never rescheduled, and thirteen
(13) remainder claims are for canceled surgeries that were rescheduled at a later date.
Hartford Hospital did not bill for any surgeries or procedures in any of these canceled
surgery claims. Nevertheless, we have been told by the auditors that National




25>.W7~STITUTION PLAZA   I   HARTFORD, CONNECTICUT 06103·1919   I   860-251-5000   I   WWW.SHIPMANGOODWIN.COM
                                                                                   Page 2 of 8
Michael J. Armstrong
November 12, 2012
Page 2


Government Services ("NGS") has reviewed these claims and made a determination that
these claims represent medically unnecessary inpatient claims and therefore, should have
all been billed as outpatient claims only. We disagree with the findings relating to
canceled surgeries for the reasons discussed below.

I.          Canceled Surgeries.

        1.     At the time that these subject claims were submitted, neither CMS nor
NGS provided any clear guidance pertaining to canceled surgeries that would have
instructed Hartford Hospital to submit these subject claims as outpatient claims only. If
NGS and OIG retroactively apply rules that were not properly promulgated, in effect,
OIG is engaging in rulemaking without following proper administrative processes.

NGS never informed Hartford Hospital that it could not submit claims for canceled
surgeries as inpatient claims with a V code assigned. Quite the opposite as demonstrated
herein. Hartford Hospital has been billing Medicare for services provided to
beneficiaries prior to a canceled inpatient surgery by reporting the appropriate ICD-9­
CM Diagnostic Code ("V code") with the claim, such as V64.1, V64.2, or V63.3,
indicating that a surgical or other procedure was not carried out. NGS has never put
Hartford Hospital on either actual or constructive notice that these canceled surgeries
should be billed any other way. Moreover, at the time that the Hospital billed for the
services in question, CMS rules did not either clearly or conclusively address the issue of
canceled surgeries. Medicare Claims Processing Manual, Chapter 1: General Billing
Requirements (last revised on January 13, 2012) provides: "if conditions for use of
Condition Code 44 are not met, the hospital may submit a 12x bill type for covered Part
B Only services that were furnished to the inpatient. Medicare will still make payment
for certain Part B services furnished to an inpatient of a hospital when payment cannot be
made under Part A because an inpatient admission is determined not to be medically
necessary." The Medicare manual does not provide that a hospital must submit
outpatient claims for services furnished to an inpatient; rather it states that it may if the
admission is not medically necessary. At the time of claim submission, Hartford
Hospital concluded that these subject inpatient admissions were medically necessary and
had these claims reviewed by its utilization review team prior to submitting all of these
claims. Hartford Hospital sees no justifiable link between Medicare Claims Processing
Manual and the conclusion that all canceled surgeries must be billed as outpatient
surgeries. If the CMS rules relating to canceled surgeries direct the provider to assign a
V code to an inpatient claim, it is counterintuitive to conclude that CMS does not allow
billing for canceled surgery as inpatient stays.

It is well established administrative law that a federal agency cannot adopt new rules and
regulations without engaging in a formal administrative rulemaking process that allows
for a public comment period. To retroactively apply a rule that concludes that all or




2537729vl
                                                                                              Page 3 of 8
Michael J. Armstrong
November 12, 2012
Page 3


most inpatient canceled surgeries cannot be billed as an inpatient admission, because it
would be by definition a medically unnecessary admission, is the equivalent of engaging
in rulemaking without following proper administrative processes.


       2.      There is inconsistent interpretation of CMS rules among various CMS
contractors on the issue of canceled surgeries.

Wisconsin Physician Services Health Insurance ("WPS"), "Ask-the-Contractor
Teleconference: Inpatient Admission Decisions" Transcript (February 8, 2012): While
addressing billing for canceled inpatient procedures, WPS stated that where a provider
chooses to discharge a patient after canceling a scheduled inpatient surgery, the provider
is expected to bill an inpatient claim because inpatient-only procedures cannot be billed
on an outpatient claim.

According to WPS, in order to report charges for any services provided prior to the
procedure being canceled, a provider should: (i) code one of the appropriate V codes
indicating that the surgical or other procedure was not carried out, and then (ii) place an
additional diagnosis code on the claim to indicate the reason the procedure was not
performed.

In a May 8, 2012, a NGS Jurisdiction 13 CERT Educational Consultant, in an email to
Hartford Hospital's Director of Case Coordination stated that in situations where
inpatient surgeries are canceled after the furnishing of pre-operative services, hospitals
should utilize the applicable V code and submit them as inpatient claims.

        Hartford Hospital's email to NGS:

               Hello ....

               I met you at the presentation at the Hospital of Central Connecticut this week. Thank you
               for a very informative session. You requested that I email you my question about
               canceled inpatient surgeries.

               So this is the dilemma:

               Patient admitted to the hospital for a planned elective inpatient surgery. For some reason
               (this varies) the surgery is canceled. This occurs after the patient's arrival, all pre-op
               clearances have been secured, some treatments may have already begun.

               The surgery is then canceled. 

               The options include: 





2537729vl
                                                                                                  Page 4 of 8
Michael J. Armstrong
November 12,2012
Page 4


                  1. Placing the patient in outpatient status and billing as such (we are essentially not
                  changing the patient status, simply discharging them home; also there is no order to do
                  this, nor is the beneficiary notified as per Condition Code 44 guidelines).

                  2. The inpatient status remains in place as per the original MD order, and a V-code
                  modifier is placed on the bill to notify CMS of the canceled surgery.

                  So then how is the hospital reimbursed for the services it has provided to the patient,
                  while maintaining absolute compliance with billing rules and beneficiary rights.

                  Thanks so much for your reply. 

                  [Director, Hartford Hospital's Case Coordination] 


            NGS'response:

"The inpatient claim should be submitted with the applicable "V" diagnosis code (V641 ,
V642, V643), but the surgical procedure should not be billed, since it was not
performed. Individual services performed during the stay can be billed.

Please bear in mind that there are no specific Medicare rules regarding this particular
situation, so the advice offered here has been proferred by NGS Part A billing experts
who have not previously encountered this issue."

As recently as September 18, 2012 week at an NGS educational program for Hartford
Hospital, a representative from NGS stated that she could not advise the Hospital on
billing for canceled surgeries and said that she would have to get back to the Hartford
Hospital on the issue. The following was NGS's response to Hartford Hospital's
Director, Case Coordination on October 8, 2012:

                 Good afternoon [Director, Case Coordination],

                 I've checked back and, yes, the information below is what I have as the most current
                 advice for the billing steps when a scheduled inpatient service is cancelled. Please go
                 ahead and follow this guidance and, if you do encounter problems, let me know.

                 " The jnpatjent clajm should be subIIlitted wjth the applkable f€re Vftrn djagnosjs code
                 (V641, V642, V643), but the surgkaJ procedure should not be bjJled, sjnce jt was not
                 performed. IndjvjduaJ servkes performed dudng the stay can be bjJled.

                 Condjdon Code 44 js not applkable jn thjs sjtuaaon, sjnce the patknt was djscharged,
                 rather than transjtjoned to outpadent status. Sjnce the padent wjJl most probably be re­
                 adIIlitted, the patknt's status may be changed to Leave ofAbsence (LOA)ftrn.

                 Please bear jn IIlind that there are no specjfjc Medkare rules regardjng thjs partkular
                 sjtuadon, so the advke offered here has been proffered by NOS Part A bjlJjng experts
                 who have notprevjously encountered thjs "




2537729vl
                                                                                                 Page 5 of 8
Michael J. Armstrong
November 12, 2012
Page 5


               As for the beneficiary notification on Condition Code 44, please refer to the following:

               MLN Matters # SE 0622 was written on 09/10/04 and updated on 1O/01112 .. .it states the
               following:

                "Q8. My has eMS required that the patient sliD be in the hospjta1 when his or her status
               js changed from that ofan inpatient to outpatient? Most hospjta1s have agreements wjth
               QIOs for UR, and detenninations about medically unnecessaryacJmjssjons can be decjded
               days or weeks after the patient leaves the hospjta1.

               A8. The patient rights CoP in §482.13 of the regulations require a hospital to protect and
               promote each patient's rights. Medicare beneficiaries have the right to participate in
               treatment decisions and to know their treatment choices. Beneficiaries are also entitled to
               receive information about co-insurance and deductibles. CMS has a duty to protect these
               rights. Requiring that the decision resulting in a change in patient status be made before
               the beneficiary is discharged is intended to ensure that the patient is fully informed about
               the change in status and its impact on the co-insurance and deductible for which the
               beneficiary would be responsible. For example, if a patient has already met her Part A
               deductible, informing the beneficiary a month after discharge that that she will now be
               responsible for additional coinsurance as an outpatient could impose a financial
               hardship."

               That said, our internal provider education experts have weighed in and are advising
               hospitals to put this notification in writing and obtain a beneficiary signature, with a copy
               of the document included in the record. This will be the hospital's only defined way to
               demonstrate that the beneficiary's rights have been protected.

               Thanks for your patience in awaiting my response on these issues ...hope the information
               is helpful ....

               J 13 CERT Educational Consultant
               National Government Services
               Wellpoint

The fact that eMS contractors have given and continue to give inconsistent advice is
evident that there is no clear policy, rules or regulations to either guide them or support
the interpretation being applied in the above referenced audit report.

        3.      According to eMS guidelines, some of the subject claims may only be
billed as inpatient claims.

eMS guidelines require that certain procedures be billed as inpatient only. Thirteen (13)
of the twenty-eight (28) subject claims fall within inpatient only procedures. To
conclude that every canceled surgery for every inpatient only claim results in a medically
unnecessary stay is to render this inpatient only rule meaningless.




2537729vl
                                                                                   Page 6 of 8
Michael J. Armstrong
November 12, 2012
Page 6


       4.      The medical necessity for the inpatient admission was determined at the
time of the admission prior to the surgery being performed and all of the subject 26
claims were subject to utilization review by Hartford Hospital prior to Hartford Hospital
submitting the claims for payment.

The decision that the patient needed to be admitted was made by the admitting physician
based upon a variety of factors including, the nature of the surgery and the patient's co
morbidities relating to the planned surgery. Therefore, medical necessity of the inpatient
procedure should not be considered after the patient was admitted and the surgery was
canceled. If that was done, presumably all inpatient admissions wherein surgery is
canceled would be considered medically unnecessary and then there would be little
reason to assign a V code to an inpatient admission involving a canceled surgery.

       5.     While the surgery relating to the subject claims was canceled, there were
considerable costs incurred by Hartford Hospital with respect to these claims.

The costs associated with the inpatient admission are unique to the inpatient admission.
At a minimum, with an inpatient admission, the patient receives preoperative diagnostic
testing, preadmission nursing instruction, extensive operational processes are associated
with the inpatient admitting process, and once the patient is admitted to the unit,
extensive nursing assessments are performed, hospitalists may see the patient and
preoperative nursing services are provided. These costs are not recoverable when the
admission is billed as an outpatient stay.

      6.     The only CMS rule relates to a possible leave of absence as discussed in
Medicare Claims Processing Manual, Sec. 40.2.5.

This rrue is further evidence that not all inpatient admissions involving canceled surgeries
should be billed as outpatient stays. Notwithstanding for risk management reasons,
Hartford Hospital does not view it as appropriate to place its patients on leave of absence
status.

        7.     The OIG in it 2013 Work Plan supports the notion that inpatient claims
not followed by a rescheduled admission should be paid as inpatient and further
recognizes that Medicare is paying for two inpatient claims.

This is further evidence that Hartford Hospital's submission of the subject claims is not
only consistent with current practices but also consistent with the rules and the
understanding of most providers.

        For the reasons described above, we respectfully request that you review these
subject claims relating to canceled surgery and reverse your findings.




2537729vl
                                                                                  Page 7 of 8
Michael J. Armstrong
November 12, 2012
Page 7


            II.   Other Audit Findings.

        With respect to the other audit [mdings in the audit report, Hartford Hospital has
the following comments:

            1.    Category A-Inpatient Short Stays.

The OIG auditors reviewing Hartford Hospital's claims in this category had 29 findings.
Of these, Hartford Hospital is in disagreement with nineteen (19) of the cases relating to
canceled surgeries and believes that these claims should be reimbursed as inpatient stays
for the reasons discussed above. With respect to the ten (10) claims that Hartford
Hospital agrees with, it will put control into place and monitor compliance. With respect
to the claims that Hartford Hospital disagrees with, once CMS notifies Hartford Hospital
that it has changed the rules with respect to billing for canceled surgeries, Hartford
Hospital will implement the proper controls to fully comply with such rules.

            2.    Category B-Inpatient claims paid in excess of charges.

The OIG auditor found ten (10) cases in this category to be in error. Hartford Hospital
believes that nine (9) claims in this category are correct and are the subject of the
discussion above relating to payment for canceled surgeries. Hartford Hospital has
addressed the one case in error by putting in place appropriate controls to correct and
monitor. To the extent that CMS notifies Hartford Hospital that it has changed the rules
with respect to billing for canceled surgeries, Hartford Hospital will implement the
proper controls to fully comply with such rules.

            3.    Category C-Outpatient claims paid in excess of charges.

A limited number of errors were identified and were associated with human error .
Corrective action has been implemented to reduce the risk of the same human error
reoccurring, including a prospective audit plan to monitor prospective compliance.

       4.         Category H-Inpatient medical devices and Category G- Outpatient medical
devices.

Hartford Hospital has reinforced its processes for physician documentation relating to
describing the clinical reasons why the subject device presents unacceptable risk to the
patient if it were to be explanted. In addition, to the limited extent that any credits are
issued by a particular manufacturer, the Hospital has very strong processes to refund any
amounts owed to Medicare.




2537729vl
                                                                                 Page 8 of 8
Michael J. Armstrong
November 12, 2012
Page 8


            5.   Category I-Outpatient E&M services with modifier 25.

These errors were isolated to one department and corrective action was taken, including
a prospective audit plan to monitor prospective compliance.

         Hartford Hospital takes its compliance obligations very seriously. With respect to
all the claims subject to audit, the Hospital reviewed its relevant internal processes and
controls and where necessary, made adjustments to enhance its compliance efforts and
processes. Weare very grateful for your time and consideration. Please feel free to call
me if you have any questions about the Hospital's efforts in this regard or if you require
additional information. We look forward to your response.



                                            Sincerely,



                                            J~tn~
JWF: 

Cc: Sonal Shah, Vice President and Chief Compliance Officer 





2537729vl
